Office of Inspector General
U.S. Department of Labor
Office of Audit




                   Audit of Stillman College’s
                Competitive Welfare-to-Work Grant




                                  Report Number: 04-01-002-03-386
                                  Date Issued:
                                              TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

OBJECTIVE, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

RESULTS OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          Expenditure Reports Were Improperly Prepared and
          Not in Agreement with The College’s Accounting System . . . . . . . . . . . . . . . . . . . . 8

          Improper Grant Charges of $194,936 Were Identified . . . . . . . . . . . . . . . . . . . . . . . 9

          Adequate Procedures Were Not in Place
          for Tracking Funds Spent on Target Groups . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          Program Performance Goals Have Not Been Met . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          Placement Costs Have Increased . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

          Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

STILLMAN COLLEGE’S COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . 17

ANALYSIS OF STILLMAN COLLEGE’S COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

EXHIBITS

EXHIBIT 1: COMPILATION OF WtW GRANT EXPENDITURES IN STILLMAN
           COLLEGE’S GENERAL LEDGER

EXHIBIT 2: BUDGETED EXPENDITURES FOR VARIOUS GRANTS STILLMAN
           COLLEGE ADMINISTERED JULY 1999 THROUGH JUNE 2000



                                                                    ii
                   TABLE OF CONTENTS (Cont.)


EXHIBIT 3: SCHEDULE OF REIMBURSEMENTS TO THE EAST TUSCALOOSA
           FAMILY RESOURCE CENTER

EXHIBIT 4: TEXT OF STILLMAN COLLEGE’S RESPONSE TO THE DRAFT AUDIT
           REPORT




                                 iii
                           ACRONYMS


CFR     –   Code of Federal Regulations
DHR     –   Department of Human Resources
DOL     –   U.S. Department of Labor
ETA     –   Employment and Training Administration
FY      –   Fiscal Year
ETFRC   –   East Tuscaloosa Family Resource Center
FSR     –   Financial Status Report
OIG     –   Office of Inspector General
OMB     –   Office of Management and Budget
TANF    –   Temporary Assistance for Needy Families
WtW     –   Welfare-to-Work




                                  iv
Audit of Stillman College’s Competitive Welfare-to-Work Grant



                                     EXECUTIVE SUMMARY


On January 4, 1999, Stillman College received a competitively procured Welfare-to-Work (WtW)
grant from the U.S. Department of Labor (DOL) Employment and Training Administration (ETA). The
purpose of the grant was to place 850 hard-to-serve individuals in unsubsidized employment, over a 2-
year period.

In September 1999, an ETA technical assistance team identified issues regarding the College’s
compliance with Federal requirements. In June 2000, the Office of Inspector General (OIG) received
a complaint that indicated the technical assistance team’s concerns were not being adequately
addressed and questioned Stillman’s capability of meeting performance goals in the grant. In response
to the complaint, we audited financial and program activities related to Stillman’s WtW grant for the
period January 4, 1999 through June 30, 2000.

                         We identified a variety of fiscal and program management issues which have
 Our Findings
                         caused us to question whether the grant should be continued.

We found that financial accountability over the grant was poor. Program expenditures Stillman
reported to ETA at June 30, 2000, could not be reconciled with grant expenditures recorded in the
College’s general ledger. Further, the report was not prepared on an accrual basis, as required by
ETA, and was not completed in accordance with other reporting instructions.

We identified $194,936 of questionable expenditures included in the College’s general ledger.
Specifically:

        !        salaries and fringe benefits were overcharged by $48,075;

        !        equipment totaling $133,988 was overcharged to the grant; and

        !        other goods and services costing $12,873 were overcharged to the grant.

Several performance issues were also identified. WtW requirements emphasize that certain welfare
recipients deemed “hard-to-serve,” have priority in getting assistance. Requirements provide that no
more than 30 percent of grant funds may be spent assisting “other eligible” persons. However, the
College did not have a system for tracking expenditures spent in assisting “hard-to-serve participants”
and those who are designated as “other eligibles.”



U.S. Department of Labor - Office of Inspector General
Audit of Stillman College’s Competitive Welfare-to-Work Grant



We also found participants were not being placed in unsubsidized employment at a rate consistent with
the grant’s terms. As of June 30, 2000, three-fourths of the way through the initial 2-year grant period,
Stillman reported it had placed only 76 participants in jobs, or about 9 percent of the 850 persons it
proposed serving in the original grant. Consequently, the average cost for each placement had risen to
over $9,600, instead of $4,400 that was anticipated when ETA awarded the competitive grant.

We found indications that Stillman may have substantially overestimated in its proposal the number of
eligible welfare recipients who were available to be served. Finally, the files of participants reported as
placed often did not contain documentation of Stillman’s efforts to find them jobs. Consequently,
Stillman’s role in finding them jobs is uncertain.

ETA recently extended the grant period until January 2, 2002, and reduced placement goals from 850
to 200, and the total grant was reduced by about $841,000. The changes resulted in an anticipated
average cost for each placement of $14,400.

                         Reduced estimates of the need for the program and the variety of problems
 Recommendations
                         we identified caused us to question the program’s viability. We are also
                         concerned that the significant reduction in performance expectations
allowed by the modification calls the competitive grant process into question, as the award was based
on representations that a much larger population of welfare recipients would be served, at significantly
lower average costs.

Consequently, we recommend the Assistant Secretary for Employment and Training reconsider the
decision to extend the grant. If reevaluation leads to the conclusion that modification of the grant was
not advisable, provisions should be made for assisting participants who are currently enrolled in the
program and the grant should be terminated.

If the Assistant Secretary decides the grant should be continued, the “Recommendations” section of this
report provides a summary of several changes we believe must occur in order for Stillman to
responsibly administer an effective program. We also recommend ETA ensure $194,936 in grant
expenditures we have questioned are not claimed or paid.

 Stillman’s Response             Stillman did not disagree with our finding that reported expenditures
                                 were inconsistent with the College’s accounting records. Stillman
                                 offered explanations for some of the costs we




U.S. Department of Labor - Office of Inspector General                                           2
Audit of Stillman College’s Competitive Welfare-to-Work Grant



questioned but did not provide adequate justification for charging the questioned costs to the grant.
Also, Stillman stated that since placement goals had been reduced from 850 to 200, they would meet, if
not exceed, the revised goals.

                                                     The response did not provide additional information
 OurAnalysis of Stillman’s Response                  that caused us to alter findings, conclusions or
                                                     recommendations in our draft report.




U.S. Department of Labor - Office of Inspector General                                              3
Audit of Stillman College’s Competitive Welfare-to-Work Grant




                                           INTRODUCTION


                                    Provisions of the Balanced Budget Act of 1997 (Act), authorized
Objectives of                       DOL to make $3 billion available for WtW grants. WtW grants
Welfare-to-Work Grants              intend to help Temporary Assistance for Needy Families (TANF)
                                    program recipients, and certain non-custodial parents find
                                    employment.

During FYs 1998 and 1999, $711 million of the $3 billion in WtW funds was designated for award
through competitive WtW grants. ETA solicited grant applicants from private and public organizations,
to administer transitional assistance programs and help hard-to-employ welfare recipients find lasting
jobs that offer good prospects of self-sufficiency. ETA judged the applications it received on a variety
of published criteria that included the need for funds in the area served by the applicant, the viability of
the proposed service delivery strategy, and likelihood of a proposed project’s success.

To date, ETA has made three rounds of competitive WTW grant awards. While the periods of
performance for the projects vary, grant funds may be available for up to 5 years beyond the initial date
of the grant award.

                              WtW competitive grants have a “work-first” emphasis. The grants
Principal Grant               are meant to provide welfare recipients with transitional assistance that
Requirements and              moves them into unsubsidized employment with good career potential
Criteria                      for economic self-sufficiency. Transitional assistance may be
                              provided to participants through a strategy that first engages them in
                              employment-based activities. Basic or vocational skills training may
be provided for a period of up to 6 months pre-employment, or as a post-employment activity, in
conjunction with either subsidized or unsubsidized employment.

In addition to provisions of the Act, nonprofit grantees are required to follow general fiscal and
administrative rules contained in Office of Management and Budget (OMB) Circular A-110, which is
codified in DOL regulations at 29 CFR 95. Also, provisions of OMB Circular A-21, which include
requirements for determining the allowability of costs, must be followed by educational institutions.
Program regulations specific to WtW grants, found at 20 CFR 645, apply to the competitive grants.




U.S. Department of Labor - Office of Inspector General                                         4
Audit of Stillman College’s Competitive Welfare-to-Work Grant



Provisions of 20 CFR 645.235 identify allowable administrative costs. The provisions also limit
administrative costs charged to the competitive grants to no more than 15 percent of the grant award.

                                On January 4, 1999, Stillman College, located in Tuscaloosa, Alabama,
Stillman College’s              received a 2-year WtW grant in the amount of $3,723,620. The period
Competitive Grant               of performance for Stillman’s Work-First Program was January 4, 1999
                                through January 3, 2001.

The purpose of the initial grant was for Stillman to place 850 hard-to-serve individuals in unsubsidized
employment over a 2-year period. Stillman’s grant application stated its objective was to place
recipients in jobs and provide support necessary for lasting employment. Stillman was to provide
individual assessment, job readiness, job search and placement assistance to welfare recipients, non-
custodial parents and public housing residents.

On December 1, 2000, ETA modified the grant, reducing the number of expected placements from
850 to 200. The grant period was also extended an additional year, until January 2, 2002, and the
grant amount was reduced by $841,390, from $3,723,620 to $2,882,230.

                          In September 1999, an ETA technical assistance team identified serious
OIG’s Involvement         grant administrative, compliance and performance issues. In June 2000,
                          the OIG received a complaint that indicated problems with Stillman’s
                          stewardship of the grant identified were not being addressed. Issues cited
in the complaint included a variety of poor financial management practices and spending abuses.
Additionally, the complaint indicated it was unlikely Stillman would be able to meet performance goals
established in the grant.

We reviewed financial and performance data related to Stillman’s WtW grant operations as of June 30,
2000. Our initial work suggested that several concerns expressed in the complaint had merit.
Consequently, we began a limited scope audit of grant activities that occurred from January 4, 1999
through June 30, 2000.




U.S. Department of Labor - Office of Inspector General                                       5
Audit of Stillman College’s Competitive Welfare-to-Work Grant



                    OBJECTIVE, SCOPE AND METHODOLOGY


                    We audited the WtW-funded competitive grant awarded to Stillman College to
 Objective          determine if WtW funds were spent in accordance with applicable laws and
                    regulations.


                   Our audit included Stillman WtW program activities that occurred from January 4,
 Scope             1999 through June 30, 2000.


                    To obtain an understanding of the WtW program, we reviewed legislation,
 Methodology        regulations, grant and grant proposal material prepared by Stillman. We
                    interviewed ETA national and regional office staff responsible for oversight of the
WtW grants, and Stillman’s staff who was responsible for accounting and administrative controls over
grant expenditures and program operations.

We reviewed Stillman’s financial and program records that related to issues identified in the complaint.
Additionally, to evaluate grant performance, we randomly selected a sample of 30 participants from
the 76 participants who had obtained unsubsidized employment as of June 30, 2000. Participant files
were reviewed to determine if participants were eligible for, and had been adequately served by,
Stillman’s WtW program. Our sample was designed to provide review results at a confidence level of
90 percent.

It was not an objective of our audit to issue an opinion on whether the WtW grant expenditures
included on the June 30, 2000, Financial Statement Report (FSR) Stillman submitted to ETA were
accurate, complete or reported in accordance with instructions. However, in completing our tests, it
came to our attention that a material unreconciled difference existed between expenditures reported in
the College’s general ledger, which was represented as the accounting system used for preparing
FSRs, and expenditures reported to ETA. We also found accrued expenditures were not reported on
the FSR, as required, and that other reporting requirements were not followed. (See the “Results of
Audit” section of this report for a discussion of the issues.) Consequently, we concluded the June 30,
2000, FSR was not prepared in accordance with ETA’s reporting instructions and should not be relied
upon.




U.S. Department of Labor - Office of Inspector General                                      6
Audit of Stillman College’s Competitive Welfare-to-Work Grant


Therefore, the financial portion of our audit consisted of a review of accounting data and supporting
documentation maintained in Stillman College’s general ledger system. We did not evaluate the
college’s general operations internal controls. Our examination was limited to the administrative and
accounting controls applicable to Stillman College’s WtW grant.

Our audit was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States and included such tests as we considered necessary to satisfy
the objectives of our audit. Our field work began in August 2000 and continued intermittently through
September 2000.




U.S. Department of Labor - Office of Inspector General                                    7
Audit of Stillman College’s Competitive Welfare-to-Work Grant


                                        RESULTS OF AUDIT


We found that concerns regarding Stillman’s stewardship of grant funds and its ability to meet
performance goals had merit. Financial reports were inaccurate and unsupported, rendering them
unreliable. Unallowable costs had been charged to the grant. Expenditure requirements had not been
observed and performance goals which were the basis on which the grant was awarded to Stillman,
had not been met.

                                                   Grant recipients must provide ETA with
 Expenditure Reports Were Improperly               quarterly FSR that indicate cumulative
 Prepared and Not in Agreement with                accrued grant expenditures. However,
 The College’s Accounting System                   expenditures reported on the June 30, 2000,
                                                   FSR did not agree with amounts reported in
                                                   the College’s accounting system. Also, the
FSR was not prepared in accordance with the reporting instructions and contained inaccuracies.

Costs reported on the FSR did not agree with Stillman’s General Ledger. We were told by
Stillman’s grants manager that the College’s accounting system was the means used to accumulate grant
expenditures and to prepare FSR that were submitted to ETA. However, expenditures reported on the
June 30, 2000, FSR did not agree with the College’s general ledger. Stillman reported cumulative
grant expenditures of $716,734 on its June 30, 2000 FSR (lines 2 and 3 combined); however, our
compilation of expenditures coded as WtW grant expenditures in the College’s general ledger totaled
$930,261. Stillman did not provide us with a reconciliation of the differences between the general
ledger and FSR. 1

Grant expenditures were not reported on an accrual basis. We also found that Stillman had not
followed reporting instructions in preparing the FSR. ETA’s instructions require that accrued
expenditures be reported on the FSR. Under the accrual basis of accounting, expenditures are
recognized when they are incurred. However, the College did not prepare the June 30, 2000 FSR on
an accrual basis. Rather, the College maintains a cash-based accounting system. Consequently, an
item’s cost is recorded only after cash has been paid out. We found many instances where grant-


        1
           The difference of $213,527 may be explained, in part, by exclusion from the FSR of two buses,
purchased for $108,620, that ETA had previously advised Stillman were unallowable grant expenditures. (See the
discussion of this item that follows under questioned costs.) Also, several year-end adjustments totaling $7,709
that involved WtW funds were made by Stillman’s accounting department. However, even allowing for these
adjustments, expenditures on the FSR differed from those in the general ledger by nearly $100,000.



U.S. Department of Labor - Office of Inspector General                                                         8
Audit of Stillman College’s Competitive Welfare-to-Work Grant


related costs had been incurred months prior to the end of the quarter, but had not been properly
recognized because Stillman did not report them as expenditures until they were paid.

The FSR was improperly completed. We also noted that the FSR had been improperly completed.
Instructions for preparing the FSR require that total grant expenditures be reported on line 2 of the
form. However, the College omitted administrative expenditures from costs reported on line 2 of the
FSR. As a result, total grant expenditures reported on the FSR were understated.


                                                         Because Stillman did not provide support for
 Improper Grant Charges of                               expenditures of $716,734 reported on the
 $194,936 Were Identified                                June 30, 2000 FSR, we examined expenditures
                                                         included in the College’s June 30, 2000 general
                                                         ledger that were coded as WtW grant costs.


                                                                                         Figure 1




U.S. Department of Labor - Office of Inspector General                                               9
Audit of Stillman College’s Competitive Welfare-to-Work Grant


OMB Circular A-21, Section C.2.(d) provides that for costs to be allowable, they must conform to
limitations set forth in the agreement. Also, Section C.4.(a) provides that goods or services are
chargeable relative to benefits received by the grant.

Of the $930,261 in total expenditures posted to Stillman’s general ledger for the WtW account, we
identified $194,936 that did not satisfy the Circular’s criteria. For purposes of discussion, we have
classified the charges into the categories of personnel, equipment and other costs, as illustrated in Figure
1.

Personnel Costs of $48,075 were improperly charged to the grant. The general ledger contained
personnel costs of $48,075 that should not have been charged to the WtW grant. Improper charges
include:

        •        $26,935 in excessive salary and fringe benefit costs that were allocated to the WtW
                 grant; and

        •         $21,140 of personnel costs that exceeded amounts authorized in the grant.

The WtW grant was charged more than its fair share of the Grants Manager’s salary and fringe benefit
costs. We estimate the excess charges were $26,935. Stillman charged 100 percent of its Grants
Manager’s payroll costs to the WtW grant. However, the Grants Manager did not dedicate 100
percent of his time to administering WtW grant activities. Rather, the Grants Manager was responsible
for administering at least 12 other public and private grants, in addition to the WtW grant.

Stillman did not maintain information that would have allowed us to determine the amount of time the
Grants Manager devoted to administering each grant. Lacking better information, we estimated the
various grants’ share of the costs based upon the proportion of each grant’s budgeted expenses to the
total. Total budgeted costs for the 13 grants, which included $876,389 for the WtW grant, was
$3,268,207 for the year ended June 30, 2000. (See Exhibit 2.) Using this methodology, only about 27
percent of the Grants Manager’s costs should have been charged to the WtW grant. The overcharge
amounted to $23,725 in salary and $3,210 in related fringe benefit expenses.

We also found the WtW grant was charged $21,140 for personnel costs in excess of amounts
authorized in the grant. The grant stipulated the costs that could be charged to the grant for certain staff
who administered the WtW grant program. Grant provisions required that
“ . . . any changes in wages, salaries, and fringe benefits must receive prior written approval from
ETA’s Grant Officer.” Six employees received $21,140 in salaries and related fringe benefits that




U.S. Department of Labor - Office of Inspector General                                        10
Audit of Stillman College’s Competitive Welfare-to-Work Grant


exceeded rates authorized by the grant agreement. Prior approval from the Grant Officer was not
received for the overages.

Equipment Purchases Totaling $133,988 should not have been charged to the grant. We
identified $133,988 of improper equipment purchases that were charged to the WtW grant in the
College’s general ledger. The charges involve:

        •        $108,620 for the unauthorized purchase of buses; and

        •        $25,368 of computer equipment that was not being used for the WtW grant program.

In a monitoring visit made prior to our audit, an ETA technical assistance team identified two buses
whose costs were improperly charged to the grant. The buses were purchased before the start date of
the grant and without required ETA approval. Further, ETA determined they were not necessary for
grant operations. The team recommended that the costs be disallowed. In an August 12, 2000
“Response and Corrective Action” addressed to ETA, the College indicated it had “. . . made the
necessary adjustment,” for the cost of the buses.

According to the Grant’s Manager, the cost of the two buses had been removed from expenditures
reported on the FSR, for June 30, 2000. We could not confirm the adjustment had been made to the
FSR. However, we did find that $108,620 coded as a WtW grant charge in the College’s general
ledger had not been removed. Therefore, it is necessary that Stillman demonstrate that both the
College’s general ledger and subsequent FSRs have been properly adjusted.

We also noted that Stillman was considering the purchase of three vans to transport program
participants. At the time of our review, Stillman had a fare reimbursement agreement with a local taxi
company to transport participants to their work and return them to their homes. OMB Circular A-21,
Section C.2.(a), “Cost Principles for Educational Institutions” provides that for cost to be allowable, “. .
. they must be reasonable.” We do not believe that the costs of purchasing and operating the vans are
reasonable.

We selected a sample of vouchers covering program operations from May 13, 2000 to
June 18, 2000, and analyzed the costs of transporting participants. The average number of riders each
day during this period was 3.7, and the highest number of riders on any day was 7, which occurred
only once. At least 1 participant accessed the service each day we sampled and the average number of
riders on weekends was 2.2 participants per day. The average daily taxi cost was $45.43 per day, or
a monthly cost of $1,362.




U.S. Department of Labor - Office of Inspector General                                       11
Audit of Stillman College’s Competitive Welfare-to-Work Grant


Assuming a 5-year life, the allowable monthly use charge to the WtW grant would be about $1,375 per
month ($82,500 estimated cost of the vans divided by 60 months). The use charge for the vans is
exclusive of other operating cost, such as insurance, fuel, repairs, maintenance, and drivers.
Consequently, the cost of purchasing, operating and maintaining the vans would easily exceed this
amount.

We also found that the grant was overcharged $25,368, for the purchase of 21 computers. Stillman’s
inventory of computers indicated 26 computers were being used in various locations in the WtW
program. However, the grant was charged for the costs of purchasing 47 computers. Consequently,
21 computers should not have been charged to the WtW grant. Records indicate 8 of the computers
were purchased on September 23, 1999, for a total of $7,961. The remaining 13 computers were
purchased on October 12, 1999, for a total of $17,407.

Other costs totaling $12,873 should not have been charged to the grant. We identified a variety
of additional costs that should not have been charged to the WtW grant. The items are discussed in
greater detail in sections of this report that follow, and include:

        !        $9,633 paid another provider for services to program participants;

        !        $2,220 involving inadequately supported telecommunications billings;

        !        $540 of childcare expenses for program participants who were not enrolled in work-
                 related activities at the time services were rendered; and

        !        $480 for breakfast and lunch services to the College’s staff.

Stillman paid the East Tuscaloosa Family Resource Center (ETFRC) $9,633 for costs that were not
allocable to the WtW grant. ETFRC was a nonprofit community-based organization that was
established in 1998 to help TANF recipients obtain self sufficiency, provide training to youth entering
employment, and act as an advocate for children. The Center participated as a subcontractor in the
College’s Work First program. The College agreed to reimburse ETFRC for all costs directly related
to serving eligible WtW participants. In addition, general operating costs of the ETFRC were to be
shared equally between the Center and Stillman.

We believe the arrangement was equitable, since staffing levels and space occupancy used for WtW
and other activities are about evenly distributed. However, the agreement was not followed. Some
expenses, such as lease, maintenance, equipment and installation costs were charged entirely to the
WtW grant, and not distributed as was agreed. (See Exhibit 3.)



U.S. Department of Labor - Office of Inspector General                                    12
Audit of Stillman College’s Competitive Welfare-to-Work Grant



We also found that the grant had been charged $540 for childcare services relating to participants who
were not involved in work-related activities at the time childcare services were rendered.

Additionally, the grant was charged $480 for breakfast and lunch services provided at staff meetings, to
Stillman employees associated with the WtW grant. Refreshments are not allowable entertainment
expenses according OMB Circular A-21, Section J.15, Cost Principles for Educational Institutions.

Finally, the grant was charged a total of $2,220, in two separate entries of $1,110 each, for
telecommunications expenses. The charges were supported by one invoice for $1,110 that did not
identify the nature of the costs or the location of the telecommunications services that were billed.
Consequently, we were unable to determine if the charges related to the grant. Also, we believe the
second charge is a duplicate of the first. Therefore, we question both charges.

                                                         Program criteria require that a majority of WtW
 Adequate Procedures Were                                grant funds be spent assisting certain
 Not in Place for Tracking                               “hard-to-serve” individuals. However, the
 Funds Spent on Target Groups                            College did not have an adequate system for
                                                         tracking costs spent on eligible target groups.

Grantees are instructed to report amounts spent on hard-to-serve and other eligibles separately on lines
5.a. and 5.b. of the FSR. The instructions are necessary to help ensure compliance with regulations
that allow no more than 30 percent of grant funds to be spent on other eligible participants. However,
the College was unable to support expenditures it reported for the two categories of participant costs
on its June 30, 2000, FSR.

We reviewed Stillman’s system for accumulating and reporting grant costs, and did not find a
mechanism to assign participant-related costs to the two categories. However, we did find that as early
as April 2000, Stillman had begun to break out costs on “Request for Funds” forms. Although we
found this to be an improvement over having no tracking system, we believe Stillman should modify
their automated system to track these participant costs.

                                                                Stillman has not met performance goals
 Program Performance                                            stipulated in the initial grant agreement. We
                                                                found program files often did not contain
 Goals Have Not Been Met
                                                                evidence of the assistance provided to
                                                                participants who the College reported it had
                                                                placed in unsubsidized employment.



U.S. Department of Labor - Office of Inspector General                                               13
Audit of Stillman College’s Competitive Welfare-to-Work Grant



Stillman received $3,723,620 to place 850 participants in unsubsidized employment during the 2-year
period that began January 4, 1999. After 18 months of operation (January 1999 through June 2000),
only 184 recipients had been served by Stillman’s Work-First Program, and only 76 of the participants
served (31"primary” eligible participants and 45 “other eligibles”) had been placed in unsubsidized
employment.

Assuming a consistent placement rate throughout the original grant period, about 75 percent, (637) of
the total 850 anticipated placements should have occurred by June 30, 2000. However, the 76
participants Stillman reported it had helped find jobs represented less than 9 percent of the 850
participants Stillman indicated it would place.

There are several reasons for the low level of performance. The client base of eligible TANF recipients
Stillman had agreed to serve did not materialize. Stillman’s grant proposal indicated 540 local area
TANF families classified as “long-term having received assistance for 30 months or more [and] were
within 12 months of losing eligibility.” However, we were told by an official of the Tuscaloosa County,
Alabama, Department of Human Resources (DHR) that during 1999, the total “long-term” TANF case
load of 36 clients was divided among Stillman and two other WtW grantees, and only 15 clients had
been referred to Stillman. TANF reforms had apparently reduced the number of potential participants
from 540 families at the time Stillman’s grant proposal was formulated to only 36 recipients when
Stillman began program operations.

WtW eligibility criteria were modified in January 2000, to allow assistance provided to noncustodial
parents to be included in the “primary” (70 percent) eligible category. However, our work indicates
this change did not produce any significant increase in the number of WtW clients available to be served
under the “primary” eligibility criteria.

DHR’s records indicate that by August 2000, there were only 32 long-term TANF recipients in
Tuscaloosa County, 6 in Greene County, where Stillman had opened an additional WtW office, and 1
in Hale County, where Stillman was considering opening another office.

Also, Stillman’s primary source of client referrals had evaporated. By July 2000, DHR had concerns
about the effectiveness of Stillman’s WtW program. Consequently, Tuscaloosa County DHR had not
referred any of the 32 TANF recipients who were eligible for assistance as hard-to-serve clients, at that
time. Also, DHR withdrew 4 of the original 15 referrals to Stillman “. . . due to the lack of sufficient
involvement on the part of Stillman College Work First staff.”




U.S. Department of Labor - Office of Inspector General                                     14
Audit of Stillman College’s Competitive Welfare-to-Work Grant


Our work also resulted in concerns about the sufficiency of placement assistance the Work First
program provided clients. We randomly selected a sample of 30 participants from among the 76 who
Stillman reported as having placed in unsubsidized employment, by June 30, 2000. We reviewed
participant files to determine if Stillman’s efforts on behalf of the participants were documented and if
eligibility determinations were properly completed. Available documentation did not provide evidence
that Stillman had helped 8 of the 30 participants (27 percent) find jobs.

                                    According to review notes ETA prepared when evaluating the
 Placement Costs                    proposal, the College’s plan to place 850 individuals in unsubsidized
 Have Increased                     employment, at an average cost of about $4,380 ($3,723,620 divided
                                    by 850), was considered a “reasonable investment.”

However, by the end of our audit period, Stillman had placed less than 9 percent of the individuals
originally proposed and the average cost per placement was double the estimate


                                                                                        Figure 2




U.S. Department of Labor - Office of Inspector General                                             15
Audit of Stillman College’s Competitive Welfare-to-Work Grant



ETA had deemed reasonable. Based on allowable expenses charged to the grant, the average cost for
each of the 76 reported placements, as of June 30, 2000, had risen to $9,675 ($735,325 divided by
76 placements). (See Figure 2.)

Placement cost will further increase, under recent modifications to the grant’s performance goals. On
December 1, 2000, ETA extended the grant’s period of performance an additional year. Total funding
was reduced from $3,723,620 to $2,882,230. However, goals for the number of expected placements
were reduced from 850 to 200, or less than one-quarter of the number in the initial grant. If Stillman is
able to achieve its modified goal of placing 200 participants, the average cost per placement will climb
to $14,411, or triple the average cost Stillman had initially proposed. The cost per placement could
increase even further, if the modified goal is not achieved.


                            The variety of problems identified with fiscal and program administration
  Conclusions               of the grant cause us to question Stillman’s capability to operate an
                            effective program and the advisability of the grant’s extension. Even if
                            Stillman were to quickly initiate corrective action and improve its
stewardship of the grant, the average cost per placement will escalate.

Also, such dramatic reductions in performance expectations and increased costs call the competitive
award process into question. The College received a grant based on representations in its grant
proposal that: a local program was needed; it had the capacity to administer an effective program; a
much larger number of welfare recipients would be served; and average costs would be substantially
lower. It is uncertain that this grantee would have competed successfully for the award if the current
performance goals were presented in the original grant proposal.


RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training reevaluate whether continuation
of the grant is warranted. If reevaluation leads to the conclusion that modifying the grant was not
advisable, provisions should be made for assisting participants currently enrolled in the program and the
grant should be terminated.

If it is the Assistant Secretary’s decision to continue the grant, ETA should require that Stillman institute
effective accounting and administrative controls over program operations and monitor Stillman’s
activities to ensure:



U.S. Department of Labor - Office of Inspector General                                       16
Audit of Stillman College’s Competitive Welfare-to-Work Grant


        •        grant expenditures claimed by the College are supported and allowable;

        •        fiscal and performance reports are properly prepared and contain accurate data;

        •        costs are properly allocated to the various grant programs;

        •        administrative cost limitations are observed;

        •        spending limitations relating to the non-primarily-eligible participants are not exceeded;
                 and

        •        participant files contain evidence of assistance provided to participants reported as
                 placed in jobs.

We also recommend ETA ensure $194,936 in grant expenditures we have questioned are not claimed
or paid.

STILLMAN COLLEGE’S COMMENTS ON THE DRAFT REPORT

Stillman disagreed with many of the findings, conclusions and recommendations contained in our draft
report. (See Exhibit 4 for the text of Stillman College’s response.)

Stillman acknowledged that the FSR did not agree with WtW grant expenditures identified in the
College’s general ledger, at June 30, 2000. According to the response, “Due to the utilization of dual
accounting systems, disparities occurred prior to 6/30/00 because the College’s accounting books
were not closed monthly.” The response also indicated expenditures were not reported on an accrual
basis, because of outdated accounting software. According to the response, new financial software has
been implemented that includes improved methodology for tabulating cumulative accrued expenditures.
A reconciliation, said to be of amounts reported on the June 30, 2000 FSR and the College’s general
ledger, was attached to Stillman’s response.

However, Stillman did not agree with our finding that personnel costs were charged in excess of rates
authorized in the grant agreement. Rather, the response argues we have failed to consider amounts
budgeted for fringe benefits. The grant agreement allows a fringe benefit allowance of up to 25 percent
of budgeted salaries. The salary amounts we have questioned, the response contends, are the WtW
grant’s share of fringe benefit costs. Concerning staff salaries we questioned that were in excess of
WtW grant’s fair share, the response indicates retroactive adjustments have been made “. . . to reflect
the dedicated amount of time spend on WtW grant activities.”



U.S. Department of Labor - Office of Inspector General                                        17
Audit of Stillman College’s Competitive Welfare-to-Work Grant


Regarding $108,620 in grant costs we questioned that involved the unauthorized purchase of two
buses, Stillman commented that only $105,000 of the cost was charged to the WtW grant and that the
College paid $3,620 of the purchase price. The response indicates the College is willing to bear the
entire cost of the buses; however, “ . . . since they have been in fact used to transport WtW clients, an
equitable, pro-rated allotment should be allocated (60%-College share 40%-Grant share).”

The response also indicates we erred in questioning the costs of 21 computers charged to the WtW
grant that were not used in the WtW program. Stillman commented:

        OIG mistakenly construed that check #89034 amounting to $43,657 . . . was for
        purchases . . . of computers solely for the WtW program. In fact, the grant was
        only charged for 23 computers at a cost of $23,002, the balance of the check to
        Dell Computers was for the distribution of computers assigned to and paid for by
        other College departments. The pertinent supporting documents affixed to check
        #89034 clearly illustrates that the check total was disbursed for 3 different
        general ledger account numbers.”

Concerning $9,633 of questioned costs Stillman paid another service provider, the response indicates,
“As of April 15, 2000, ETFRC (the other provider) no longer participates in the WtW program. The
amount of $9,633 was a liability consisting of retroactive monthly salaries and costs to run that Center
for WtW activities.”

The response also indicates the telecommunications charges we questioned as unsupported were for
telephones, installation and wiring of a new WtW program center. Stillman also argued that $540 of
questioned childcare charges were legitimate grant costs, but did agree that $480 spent on staff meals
and refreshments is an unallowable cost.

In response to concerns over its performance, Stillman points to an increase in the number of clients
served and placed in unsubsidized jobs, since July 2000. Stillman argued that their potential client base
has not evaporated, as indicated by a total of 273 participants served and 147 placed in unsubsidized
employment, as of December 30, 2000. According to Stillman, the Tuscaloosa County DHR was not
their only source of eligible clients. The response cites “broad-based research” that indicates more than
75 eligible clients in Hale and Pickens Counties satisfy current WtW program eligibility criteria.
However, Stillman commented it will not open offices in those Counties.

Finally, Stillman disagreed with our finding that there was no evidence on file to indicate Stillman’s
involvement in helping 8 of the 30 participants we sampled find jobs. According to the response, “ . . .
evidence will show that a twenty-five step process is used to place each eligible client on jobs.”



U.S. Department of Labor - Office of Inspector General                                      18
Audit of Stillman College’s Competitive Welfare-to-Work Grant



ANALYSIS OF STILLMAN COLLEGE’S COMMENTS

Although Stillman’s response indicates inaccurate reporting was the result of confusion caused by the
use of dual accounting systems, we were told by Stillman’s management that the College’s accounting
system was the sole source from which the FSRs were prepared. We are not aware that Stillman used
a dual accounting system. We were not provided access to any other financial accounting system other
than that which supported the College’s general ledger. Consequently, we are unable to comment on
Stillman’s explanation for discrepancies between the general ledger and the FSR, or the accuracy of the
reconciliation Stillman provided. Stillman should submit a corrected FSR to ETA that is based on the
College’s general ledger.

Stillman commented that steps have been taken to adjust and to properly allocate costs that benefit
more than one grant. The response does not provide the amount of the adjustments. However, the
framework of a cost allocation plan is attached to the response. However, the plan does not address
procedures that will be used in capturing information required to equitably distribute joint administrative
costs, such as time devoted to administering various programs by the Grants Manager.

We do not agree with Stillman’s comments that the salary overages we questioned constitute allowable
fringe benefit charges. Stillman is allowed to charge fringe benefits to the grant of up to 25 percent of
the budgeted salaries. The general ledger contained numerous direct charges for fringe benefit costs of
staff involved in administering the grants. We did not question any fringe benefit charges, because they
did not exceed the 25 percent of authorized salary amounts. However, Stillman cannot treat salaries
paid in excess of authorized amounts as allowable fringe benefit costs. Changes to budgeted wages,
salaries or fringe benefits requires the Grant Officer’s prior written approval.

We also disagree with Stillman’s response that part of the buses’ purchase price should be considered
allowable charges to the grant. The buses were not an approved expenditure, were unnecessary, were
purchased before the grant was effective, and their full purchase price of $108,620 was recorded in the
general ledger as a WtW grant expenditure. Further, the grant agreement allows for the purchase of 3
vans at a total cost of $105,000. According to Stillman, they have now purchased the vans.
Consequently, the entire cost of the buses should be borne by Stillman.

Concerning the charges for 21 computers we questioned, the College’s general ledger indicated that
Stillman charged a total of 47 computers to the WtW grant. Of the total, 11 computers were
purchased in July 1999 for use by the ETFRC at a total cost of $14,155. The remaining 36 computers
were posted to the general ledger using two separate entries (23 computers for $23,002, and 13
computers for $17,602) with a transaction date of November 30, 1999. The WtW program’s



U.S. Department of Labor - Office of Inspector General                                      19
Audit of Stillman College’s Competitive Welfare-to-Work Grant


inventory of computers listed only 26 computers, and in a written statement by Stillman, they confirmed
that only 26 computers had been purchased for use in the WtW program. We question the 21
computers that were not included in the WtW program’s inventory, which includes all 13 computers
purchased for $17,602, and 8 of the 23 computers included in the $23,002 purchase (3 at a unit price
of $1,047, and 5 at a unit price of $964).

Stillman’s response argues that the 36 computers purchased with a transaction date of November 30,
1999 were charged to 3 different departments, as a document attached to the invoice indicates. We
agree that the invoice does break out the computer-related costs as Stillman claims. However, we
found that 13 computers, purchased for $17,602, that should have been charged to another
department, were actually charged to the WtW grant, according to the College’s general ledger. As
stated above, these computers were not included in the WtW program’s inventory, and should not have
been charged to the grant.

Our position has not changed concerning ETFRC’s costs that were improperly allocated between the
WtW grant and other Center functions. Because Stillman is the grant recipient, it retains responsibility
for ensuring that all costs, including those of its subcontractors, are equitably allocated among funding
sources.

We continue to question unsupported telephone charges, because Stillman did not provide acceptable
documentation that the charges were allowable. Acceptable documentation would include a
description of the services or products provided and the location that received them. Also, the
response does not provide rationale or additional documentation that supports Stillman’s comments that
the childcare expenses we questioned were legitimate. Consequently, we are unable to comment
further on this item.

While Stillman claims to have substantially increased placements since our audit field work ended, they
did not indicate how many of the placements claimed were hard-to-employ TANF recipients, who are
the primary group the WtW program intends to help.

Stillman’s response does indicate that 192 participants, who represent 70 percent of the entire 273
participants served as of December 31, 2000, were not hard-to-serve TANF recipients. While
Stillman may have increased the number of placements they have made since July 2000, less than one-
third of the program participants served, as of December 31, 2000, were hard-to-serve clients. We
note that the majority of clients being served by Stillman are eligible for assistance under other existing
Federal programs, such as the Workforce Investment Act.




U.S. Department of Labor - Office of Inspector General                                      20
Audit of Stillman College’s Competitive Welfare-to-Work Grant


Stillman disagreed with our statement that its client base of hard-to-serve TANF recipients had nearly
evaporated. The response provides that clients from Hale and Pickens Counties can compensate for
the loss of Tuscaloosa County as a source of participant referrals. However, data Stillman attached to
its response indicates otherwise. According to Stillman’s data, as of March 6, 2001, there were only
24 long-term TANF participants in both counties (4 in Hale and 20 in Pickens County). Stillman
commented that “more than 75 eligible clients fit the current [WtW grant’s] eligibility criteria to be
served.”

If there are 75 potential clients in Hale and Pickens counties, at least 51 (75 minus 24) or 68 percent,
are not hard-to-serve TANF recipients. Consequently, it is very unlikely Stillman will satisfy grant
requirements that no more than 30 percent of grant funds be spent on participants who are not among
the hard-to-serve target group.

Finally, Stillman responded that “a twenty-five step process is used to place each eligible client on
jobs.” However, the statement was the only evidence we identified in the response that supported
Stillman’s involvement in helping 8 of the 30 participants we sampled find employment.

Stillman’s response to our draft report has not caused us to alter our findings, conclusions or
recommendations. Most significantly, the response does not diminish our concern over the escalating
cost of serving fewer participants. As we discussed, even if revised placement goals are met, the
average cost per placement will rise from $4,400 initially proposed to over $14,400.




U.S. Department of Labor - Office of Inspector General                                      21
                                                                                      EXHIBIT 1

        COMPILATION OF WtW GRANT EXPENDITURES
         IN STILLMAN COLLEGE’S GENERAL LEDGER

                                                                                Adjusted
                                            G/L               Auditor           Balance
                Account Title             06/30/00          Adjustment          06/30/00

     Administrative Costs:

     Administrative Salaries              $125,315              $31,443           $93,872
     Fringe Benefits                         25,522               3,800             21,722
     Total Admin. Costs                   $150,837              $35,243          $115,594


     Other Costs:
     Non-Administrative Salaries          $386,412              $11,920          $374,492
     Fringe Benefits                         72,700                 912             71,788
     Participant Subsidized                   1,702                                  1,702
     Travel                                  14,494                                 14,494
     In-House Training Exp.                     974                                    974
     Office Supplies                         10,112                                 10,112
     Maintenance & Fuel                         863                                    863
     Inventory Supplies                         325                                    325
     Postage                                     74                                     74
     Instructional Supplies                   1,316                                  1,316
     Utilities (includes phone)               8,147                                  8,147
     Professional Services                   41,587              10,653             30,934
     Printing                                 3,133                                  3,133
     Facilities Rental                        6,899                                  6,899
     Computer Systems                        63,184              25,368             37,816
     Telecommunications                      20,847               2,220             18,627
     Copiers                                 10,045                                 10,045
     Furniture                               25,359                                 25,359
     Automobiles/Machinery                  108,620             108,620                    0
     Instructional Equipment                    631                                    631
     Miscellaneous                            2,002                                  2,002

     Total Other Costs                    $779,424            $159,693           $619,731




     Total Charges to Grant               $930,261            $194,936           $735,325



Note: This listing is an unaudited compilation of expenditures coded as WtW grant costs in
  Stillman College’s general ledger. Small discrepancies in totals are the result of rounding
                                                                  EXHIBIT 2

               BUDGETED EXPENDITURES FOR
      VARIOUS GRANTS STILLMAN COLLEGE ADMINISTERED
               JULY 1999 THROUGH JUNE 2000

         individual amounts.

                                           Budgeted Costs
                                                 for         Percentage to the
                      Grant Title           07/99 - 06/00         Total



Welfare-to-Work                                   $876,389        26.8%


DBE                                                 35,870


MARC Biomedical Research                           154,213


MBRS                                               437,718


Construction - Health & Wellness                   500,000


National Youth Sports Program                       72,300


Minority Graduate Program                           32,342


Corporate Affairs - Mellon                         100,000


James Graham Brown Foundation                       42,000


Lilly HBCU                                         950,000


Green Beverage                                       5,000


UNCF Ford Service Learning Network Grant             6,000


Humanities Endowment Mellon                         56,375



Total Budgeted Expenditures                     $3,268,207
                                                                                   EXHIBIT 3
                           SCHEDULE OF REIMBURSEMENTS TO THE
                        EAST TUSCALOOSA FAMILY RESOURCE CENTER

                                                            Outstandin    Billings     Payments
                                       Pmt.       Stillma       g        Allowable     Allowable      ETFRC
Ref.    Description         Billed     Rec’d         n       Amount      Per Audit     Per Audit     Receipts
                                       Date       Check     From Paid
                                                  Numbe      Invoices
                                                     r
 1     Security -           $650.00    06/04/99    87068                      $0.00         $0.00
               st
 2     Rent - 1              650.00    06/04/99    87068                        0.00       325.00

 3     Repair/Improv.        800.00    06/04/99    87068                     400.00        400.00
 4     Supplies              339.53    09/29/99    88063                     169.77        169.77

 5     Monitoring             72.00    08/26/99    87617                      72.00         72.00
 6     Ut. - Phone Bill      192.18    08/26/99    87617                     192.18        192.18
 7     Repair/Improv.        304.00    08/26/99    87617                     152.00        152.00
 8     Supplies               36.72    08/26/99    87617                      36.72         36.72
 9     Ut. - Water            57.15    08/26/99    87617                      57.15         57.15
 10    Supplies              120.00    08/26/99    87617                      60.00         60.00
 11    Supplies              206.61    08/26/99    87617                     103.31        103.31
 12    Rent - 2nd            650.00    08/26/99    87617                     325.00        325.00
 13    Terminex               95.99    08/26/99    87617                      48.00         48.00
 14    Ut. - Electric         89.42    08/26/99    87617                      89.42         89.42
 15    Maintenance           350.00    08/26/99    87617                     175.00        175.00
 16    Ut. - Phone Bill       97.20    08/26/99    87617                      97.20         97.20
 17    Supplies              131.61    08/26/99    87617                     131.61        131.61
 18    Equipt. - t.v.        349.94    08/26/99    87617                     188.97        188.97
 19    Repair/Improv.        212.03    08/26/99    87617                     106.02        106.02
 20    Payroll 06/30/99     1,274.18   09/29/99    88063                    1,274.18      1,274.18
 21    Payroll 7/15/99      1,834.08   09/29/99    88063                    1,834.08      1,834.08
 22    Payroll 7/30/99      4,442.35   09/29/99    88063                    4,442.35      4,442.35
 25    Supplies              182.44    08/26/99    87617                      98.52         98.52
 26    Repair/Improv.        385.00    08/26/99    87617                     385.00        385.00
 27    Ut - Electric         209.95    08/26/99    87617                     209.95        209.95
 28    Ut - Phone Bill       100.61    08/26/99    87617                     100.61        100.61
 29    Maintenance           350.00    08/26/99    87617                     175.00        175.00
 30    Rent - 3rd            650.00    08/26/99    87617                     325.00        325.00
 31    Payroll 08/13/99     3,037.19   08/26/99    87617                    3,037.19      3,037.19
 32    Maintenance           350.00    09/29/99    88063                     175.00        175.00
 33    Rent - 4th            650.00    09/29/99    88063                     325.00        325.00
 34    Equipt. - b/u         440.00    03/15/00                              440.00        440.00
 35    Equipt. - Table        49.99    09/29/99    88063                      26.99         26.99
 36    Supplies               60.39    09/29/99    88063                      30.20         30.20
 37    Payroll -            3,037.19   09/29/99    88063                    3,037.19      3,037.19
 38    Ut. - Water            43.33    09/29/99    88063                      43.33         43.33
 39    Monitoring             72.00    09/29/99    88063                      72.00         72.00
 40    Repair/Improv.        158.88    11/10/99    88852                      79.44         79.44
 41    Ut. - Electric        183.63    11/10/99    88852                     183.63        183.63
 42    Equipt. - 2 fldg.      99.98    11/10/99    88852                      53.99         53.99
 43    Child Abuse           280.00    11/10/99    88852                        0.00          0.00
 44    Ut. - Phone Bill       92.00    11/10/99    88852                      92.00         92.00
 45    Ut. - Phone Bill       39.90    11/10/99    88852                      39.90         39.90
 46    Ut. - Electric         62.58    11/10/99    88852                        0.00          0.00
 47    Payroll 9/05/99      3,383.46   11/10/99    88852                    3,383.46      3,383.46

                                                                                           Exh. 3 1 of 3
                                                                                       EXHIBIT 3
                           SCHEDULE OF REIMBURSEMENTS TO THE
                        EAST TUSCALOOSA FAMILY RESOURCE CENTER

                                         Pmt.      Stillma   Outstandin     Billings     Payments
                                        Rec’d.        n          g         Allowable     Allowable      ETFRC
Ref.    Description         Billed       Date      Check      Amount       Per Audit     Per Audit     Receipts
                                                   Numbe     From Paid
                                                      r       Invoices
 48    Maintenance           $350.00    11/10/99    88852                     $175.00        $175.00
 49    Rent - 5th             650.00    11/10/99    88852                      325.00         325.00
 50    Payroll 9/26/99       6,633.48   11/10/99    88852                     6,633.48      6,633.48
 51    Ut. - Water             23.47    11/10/99    88852                       23.47          23.47
 52    Supplies               445.34    11/10/99    88852                      240.49         240.49
 53    Equipt. -              637.50    03/15/00                               637.50         637.50
 54    News ads               138.84    11/10/99    88852                      138.84         138.84
 55    Ut. - Electric          96.01    01/25/00     190                        96.01          96.01
55.5   Travel                 209.50    11/20/00    88852                      209.50         209.50
 56    Supplies                28.53    1/25/00      190                        28.53          28.53
 57    Ut. - Phone Bill        89.62    1/25/00      190                        89.62          89.62
 58    Turner & Schoel         88.75    1/25/00      190                        88.75          88.75
 59    Ut. - Water             87.67    1/25/00      190                        87.67          87.67
 60    West Bldg.              16.11    1/25/00      190                          8.06          8.06
 62    Payroll 10/1/99       4,191.44   1/25/00      188                      4,191.44      4,191.44
 63    Payroll 10/23/99      4,191.44   3/28/00                               4,191.44      4,191.44
 64    Maintenance            350.00    1/25/00      190                       175.00         175.00
 65    Rent - 6th             650.00    1/25/00      190                       325.00         325.00
 66    Ut. - Electric          74.13    1/25/00      190                        74.13          74.13
 67    Ut. - Electric          40.62    1/25/00      190                          0.00          0.00
 68    Ut. - Phone Bill        87.18    1/25/00      190                        87.18          87.18
 69    Statewide               50.00    1/25/00      190                        50.00          50.00
 70    Payroll 11/07/99      4,191.44   1/25/00      188                      4,191.44      4,191.44
 71    Supplies               281.59    1/25/00      190                       140.80         140.80
 72    Ut. - Gas               21.94    2/14/00                                 21.94          21.94
 73    Monitoring              72.00    2/14/00                                 72.00          72.00
 74    Ut. - Phone Bill        11.84    2/14/00                                 11.84          11.84
 75    Travel                 134.50    2/14/00                                134.50         134.50
 76    Maintenance            350.00    2/14/00                                175.00         175.00
 77    Ut. - Water             44.16    2/14/00                                 44.16          44.16
 78    Travel                  84.50                                            84.50          84.50
 79    Rent - 7th             650.00    2/14/00                                325.00         325.00
 80    Payroll 11/22/99      3,614.33   2/14/00                               3,614.33      3,614.33
 81    Ut. - Electric          20.16    12/07/99                    8.03        20.16          12.13
 83    Ut. - Phone Bill        76.13    3/15/00                                 76.13          76.13
 84    Supplies                23.40    3/15/00                                 23.40          23.40
 85    Ut. - Phone Bill        67.30    3/28/00                    26.92        67.30          40.38
 86    Payroll 12/12/99      5,421.50   3/28/00                               5,421.50      5,421.50
 88    Rent 8th               650.00    3/28/00                   260.00       325.00         325.00
 89    Supplies               106.47    3/15/00                                114.98         114.98
 94    Maintenance            350.00    3/28/00                   140.00       175.00         175.00
 95    Payroll               3,614.33   3/28//00                              3,614.33      3,614.33
 96    Supplies                44.35    3/28/00                    17.74        47.12          29.38
 97    Supplies               169.08    3/15/00                                182.60         182.60
 98    Ut. - Phone Bill        78.99    3/15/00                                 78.99          78.99



                                                                                             Exh. 3 2 of 3
                                                                                           EXHIBIT 3
                           SCHEDULE OF REIMBURSEMENTS TO THE
                        EAST TUSCALOOSA FAMILY RESOURCE CENTER

                                           Pmt.                  Outstandin     Billings     Payments
                                           Rec’d       Stillma       g         Allowable     Allowable       ETFRC
Ref.    Description           Billed       Date           n       Amount       Per Audit     Per Audit      Receipts
                                                       Check     From Paid
                                                       Numbe      Invoices
                                                          r
 99    Ut. - Electric           $55.19     3/28/00                    $22.08       $55.19         $33.11
101    Payroll                 3,767.90    3/28/00                                3,767.90       3,767.90
103    Supplies                   44.58    3/15/00                                   44.58          44.58
104    Supplies                 124.35     3/15/00                                 158.45         158.45
105    Supplies                 282.00     3/15/00                                 298.92         298.92
106    Ut. - Gas                 91.68     3/28/00                     36.67         91.68          55.01
107    Ut. - Water               23.18     3/28/00                      9.27         23.18          13.91

108    Rent - 9th               650.00     3/28/00                    260.00       325.00         325.00
110    Supplies                  21.12     2/09/00                                   21.12          21.12
111    Ut. - Electric            66.34     3/28/00                     26.54         66.34          39.80
112    Payroll                 3,903.19    3/28/00                                3,903.19       3,903.19
113    Ut. - Phone Bill          82.25     3/28/00                     32.90         82.25          49.35
114    Supplies                 122.35     3/28/00                     48.94       132.14           83.20
115    Payroll                 3,352.98    3/28/00                                3,352.98       3,352.98
116    Ut. - Phone Bill          20.22     2/17/00                      8.09         20.22          12.13
117    Ut. - Water               24.50     3/28/00                      9.80         24.50          14.70
118    Ut. - Gas                114.84     3/28/00                     45.94       114.84           68.90
119    Monitoring                72.00     3/28/00                     28.80         72.00          43.20
120    Payroll                 3,939.27    3/28/00                                3,939.27       3,939.27
                                           6/08/99      87068                                                2,100.00
                                           8/24/99      87617                                                7,880.04
                                           10/01/99     88065                                               15,540.23
                                           11/15/99     88852                                               12,751.06
                                           1/25/00       188                                                 4,191.44
                                           1/25/00       189                                                 4,191.44
                                           1/25/00       190                                                 1,940.21
                                           2/14/00      1099                                                 3,614.33
                                           2/14/00      1100                                                  72.00
                                           2/14/00      1101                                                  84.50
                                           2/14/00      1102                                                  44.16
                                           2/14/00      1103                                                 1,168.28
                                           3/15/00      1751                                                 2,007.62
                                           3/28/00      1900                                                28,190.61
                                           3/28/00      1828                                                 1,460.51



                          $   82,839.09                              $981.72    $75,925.24     $75,603.52   $85,236.43




       Total Cash                         $85,236.43

       Allowable                          $75,603.52

       Amount                              $9,632.91



       Note: Overpayments include duplicate payments by Stillman College (Item #32 for $350 and item #37
           for $3,037.19)

                                                                                                  Exh. 3 3 of 3
                                                                               EXHIBIT 4


               TEXT OF STILLMAN COLLEGE’S RESPONSE
                    TO THE DRAFT AUDIT REPORT


The complete text of Stillman College’s response to the draft audit report follows this title page.
